IN THE SUPREME COURT OF THE UNITED STATES

No.

KYLE EVAN PETERSON,
Petitioner,
-v-
UNITED STATES OF AMERICA,

Respondent.

PROOF OF SERVICE

I, Devin Burstein, hereby certify that all parties required to be served with the
Petition for a Writ of Certiorari and Motion for Leave to Proceed In Forma Pauperis
filed herewith have been served as follows:

In accordance with Supreme Court Rule 29.2, I caused the original and ten
(10) copies of these documents to be delivered to Clerk, Supreme Court of the United
States, Washington, D.C., 20543, on September 15, 2021; and on the same date I:

caused one (1) copy of these documents to be delivered to the Solicitor

General of the United States, Room 5614, Department of Justice, 950 Pennsylvania

20530-0001.

 
